                                                         U.S . OFFICE OF PERSONNEL MANAGEMENT
                                                                OFFICE OF THE INS PECTOR GENERAL
                                                                                 OFFICE OF AUDITS




Final Audit Report
Subject:


                     AUDIT OF 

  THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S 

     HUMAN RESOURCES SOLUTIONS' VENDOR 

              MANAGEMENT BRANCH 





                                             Report No. 4A-HR-OO-II-012


                                             Datc:           09/30/11




                                                              ..CAUTION··
Thi.• ludit rtpotl hu bHn disTribuTed 10 hdcnl offi cials ..- I>o.~ nlfMlniblt fllr the adn1i_i~I ... Ii<ln oflh( audilfd (If"ogram. ThiJ ludiT
reporT may (olllnio prnpt"ic:url d _h. which is prolttlcd by Federal 1.", 118 I.:.s.c. 1'J415). Thtrdnrc. " 'hile Ihi~ ludi! rtpo r t i . Ivailab k
                                   UNlTED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                      WashingtOn, D C 20415


  Oflicc 01 the
Im,pct:t()r Gen.:ral




                                                  AUDIT REPORT 





                   AUDIT OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S 

                              HUMAN RESOURCES SOLUTIONS' 

                              VENDOR MANAGEMENT BRANCH 





                                Repor' No. 4A·HR·OO·))·0J2         Dale:      09/30/11




                                                                              Michael R. Esser
                                                                              Assistant Inspector General
                                                                                for Audits




         w ....... opm .go. 

                                      UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                            Wa~hingl0n.   DC 20-115

   Office of [he
J n~rcct"r Ci cll l"Ca l

                                                  EXECUTIVE SUMMARY



                      AUDIT OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S 

                                 HUMAN RESOURCES SOLUTIONS' 

                                 VENDOR MANAGEMENT BRANCH 




                                  Report No. 4A-HR-OO-ll-012              Date: _-,0",9-,1-,3-,0-,1-,1-,1_ __




         The Office of the Inspector General has completed a performance audit of the Office of
         Personnel Management' s (OPM) Human Resources Solutions' (HRS) Vendor Management
         Branch (VMS). Our main objective was to determine if the VMB is effectively managing its
         vendor management operations. In order to make this determination, our aud it incl uded the
         fo llowing specific objectives: (1) deLennine if vendor task orders awarded in fiscal year (FY)
         20 10 complied with Federal Acquisition Regulations; (2) detennine if the Vendor Management
         Branch's performance measures are reliable in measuring actual performa nce; and (3) verify if
         Deliverable Receipt Forms were appropriately approved in FY 2010.

         Our audit was conducted from February 7, 20 11 through April 4, 201 1 at OPM head quarters in
         Washington, D.C. We detenni ned that VMS has effective performance measurement controls in
         place. However, VMB does not have effective controls in place to ensure that deliverable
         receipts are prepared and accepted for tasks completed by its vendors prior to payment, and to
         ensure compliance with the Federal Acquisition Regulations (FAR) for VMB's contracting
         processes. Our audit identified two areas requiring improvement.

         A.            Vendor ContrActing I'rocess

                           1. 	   Insuflicient Controls over VMB's Deliverable Receipt                          Procedural
                                  Acceptance Process

                                  VMB docs not have sufficient controls in place to ensure that
                                  deliverable receipts are prepared and accepTed for tasks completed
                                  by its vendors prior to payment.
2.	   Insufficient Controls over VMB’s Vendor Contracting for                Procedural
      Compliance with the FAR

      Facilities, Security, and Contracting (FSC) policies do not provide

      adequate controls to ensure compliance with the FAR for VMB’s

      contracting processes.





                                        ii
                                     CONTENTS 



                                                                                           Page

      EXECUTIVE SUMMARY ……………….........................................                     i


  I. INTRODUCTION AND BACKGROUND .......................................                    1


 II. OBJECTIVE, SCOPE, AND METHODOLOGY ...........................                          3


III.	 AUDIT FINDINGS AND RECOMMENDATIONS ........................                           5


         Vendor Contracting Process

         1. 	Insufficient Controls over VMB’s Deliverable Receipt

             Acceptance Process…………………………………………...                                          5

         2. 	Insufficient Controls over VMB’s Vendor Contracting for 

              Compliance with the FAR…..................................................    6



IV.   MAJOR CONTRIBUTORS TO THIS REPORT………….………...                                          8




      APPENDICES
         A. Human Resources Solutions’ response, dated May 31, 2011
         B. Facilities, Security, and Contracting’s response, dated June 15, 2011
               I. 	INTRODUCTION AND BACKGROUND

Introduction

This final report details the findings, conclusions, and recommendations resulting from our
performance audit of the U.S. Office of Personnel Management’s (OPM) Human Resources
Solutions’ (HRS) Vendor Management Branch (VMB). The audit was performed by OPM’s
Office of the Inspector General (OIG) as authorized by the Inspector General Act of 1978, as
amended.

Background

The Leadership and Talent Management Services (LTMS) of OPM’s HRS is a Federal business
enterprise that partners with agencies to meet their missions by providing effective human
resource solutions. Within LTMS there are two branches under the Account Management
Group: the Client Management Branch, which is responsible for customer relationship
management and business planning and development, and the VMB, which is responsible for
providing government agencies customized Training and Human Resources solutions that
improve workforce performance at the individual, team, and enterprise levels through the
activities of pre-competed private sector vendors.

VMB performs its functions by managing private sector contractors in the design, development,
and implementation of solutions in the areas of training and strategic human resource
management. VMB partners in this effort with OPM’s Facilities, Security, and Contracting
(FSC) office and adheres to the Federal Acquisition Regulations (FAR) as the main operational
criteria in the course of its procurement processes. FSC assists VMB with Contract Officer
personnel to support VMB in achieving its mission and provides oversight for the management
of contract bidding and negotiations.

VMB was created in January 2010 to consolidate LTMS’ Training & Management Assistance,
GoLearn, and Recruitment and Branding offices. From January to August 31, 2010, VMB
Project Managers were responsible for managing all aspects of the vendor contracting process,
including:

      Assisting customers in preparing Statement of Objectives/Requirements;
      Preparing Interagency Agreements, work orders, and project and work order

       amendments;

      Coordinating and facilitating Task Order Competitions and Kickoff meetings;
      Notifying the winning vendor;
      Assisting customers in reviewing the vendors’ project management plans;
      Monitoring spending and tracking progress of work against the task order; and
      Processing invoices for payment.




                                               1

From September 2010 with the creation of the VMB Center of Excellence, new protocols with
regard to task order competition were created, and a number of the duties that had historically
been the responsibility of VMB employees returned to the custody of OPM’s Contracting Group.
These duties include creation of task orders, approval of task orders, management of
competitions, and provision of contracting guidance.

Once a vendor contract is awarded, and prior to the start of contract work being performed, the
vendor prepares a Deliverable Receipt Form (DRF) signed by the customer agency for a specific
task. The DRF documents the deliverables, and their cost, to be provided to the customer. The
DRF is sent to the customer for approval when the deliverables are received and returned to the
appropriate VMB Section Project Manager for payment to the vendor. The DRF ensures that the
deliverables were completed before payment is made to the vendor.

Customer Satisfaction Surveys are used as diagnostic tools to assess Federal agencies’
satisfaction with services provided by VMB, and to meet Government Performance and Results
Act and Office of Management and Budget Circular A-11 requirements. At the conclusion of a
project, a customer survey is submitted to Federal agencies for responses that are input directly
into an online survey system with the results calculated using a statistical analysis program.
Survey results are compiled bi-annually and compared against VMB’s annual performance
targets. For Fiscal Year (FY) 2010, part of VMB’s performance target was to achieve an
American Consumer Satisfaction Index (ACSI) equivalent index score of 70 for VMB projects.
This VMB index score then feeds into the HRS-wide ACSI-equivalent index score goal of 80.
Performance results for HRS as a whole are reported in the Performance and Accountability
Reports and Program Assessment Rating Tool, as part of OPM’s balanced scorecard. VMB
results are reported internally to HRS.




                                                2

                II. OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine if the VMB is effectively managing its vendor
contracting processes. Specifically, we:

        Determined if vendor task orders awarded in fiscal year (FY) 2010 complied with
         Federal Acquisition Regulations;
        Determined if the Vendor Management Branch’s performance measures are reliable in
         measuring actual performance; and,
        Verified if Deliverable Receipt Forms were appropriately approved in FY 2010.

The recommendations included in this final report address these objectives.

Scope and Methodology

We conducted this performance audit in accordance with generally accepted government
auditing standards as established by the Comptroller General of the United States. Those
standards required that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

The scope of our audit covered 98 task order competitions and awards in FY 2010, as well as
external laws and regulations, and internal policies and procedures currently used by FSC and
VMB as guidance for managing VMB’s vendor contracting operations.

We performed our audit fieldwork from February 7, 2011 through April 4, 2011 at OPM
headquarters located in Washington, D.C.

To accomplish the audit objective noted above, we:

        •	 Sampled and tested contract files of task orders awarded in FY 2010 for compliance
           with the FAR;
        •	 Sampled and tested FY 2010 Customer Satisfaction Surveys to validate VMB’s
           reported performance data;
        •	 Sampled and tested DRFs from FY 2010 to ensure they were appropriately reviewed,
           documented, and approved; and
        •	 Interviewed VMB and FSC’s program office representatives, as necessary.

In planning our work and gaining an understanding of the internal controls over VMB’s vendor
contracting operations, we considered the internal control structure to the extent necessary to
develop our audit procedures. These procedures were mainly substantive in nature, although we
did gain an understanding of management procedures and controls to the extent necessary to
                                               3

achieve our audit objectives. The purpose of our audit was not to provide an opinion on internal
controls but merely to evaluate controls over the processes included in the scope of our audit.
Our audit included such tests and analysis of VMB’s and FSC’s vendor contract files and
internal policies and procedures as they pertained to FAR requirements; ACSI performance data
pulled from VMB’s customer surveys in relation to VMB’s performance measure targets for FY
2010; the oversight and completeness of VMB’s DRFs; and other procedures as we considered
necessary under the circumstances. We determined that VMB has effective performance
measurement controls in place. However, VMB does not have effective controls in place to
ensure that deliverable receipts are prepared and accepted for tasks completed by its vendors
prior to payment, and to ensure compliance with the FAR for VMB’s contracting processes.

We sampled documentation for review and testing on a random basis. Using VMB’s FY 2010
task order competition award file, provided on December 13, 2010, we randomly selected a
sample of 30 out of 98 umbrella task order projects, with a total value of $261,140,016, for
testing against the FAR and for our testing of DRFs. In addition, we tested all 14 customer
survey responses from the fall FY 2010 Customer Satisfaction Survey. The results from our
samples were not projected to the population.




                                               4

         III. AUDIT FINDINGS AND RECOMMENDATIONS
Vendor Contracting Process

1. Insufficient Controls over VMB’s Deliverable Receipt Acceptance Process

   VMB has insufficient controls in place to ensure that deliverable receipts are prepared and
   accepted for tasks completed by its vendors prior to payment. Specifically, for the 30 DRFs
   reviewed, we determined that 19 were not properly prepared, reviewed for quality assurance
   purposes, and accepted. The remaining 11 samples we reviewed were missing at least one of
   the required actions.

   FAR Subpart 46.501 states that acceptance [of supplies and services] constitutes
   acknowledgment that the supplies or services conform with applicable contract quality and
   quantity requirements. In addition, acceptance shall ordinarily be evidenced by execution of
   an acceptance certificate on an inspection or receiving report form.

   VMB’s processes state that VMB or the vendor is responsible for preparing a DRF for a
   specific task, and sending it to the customer for approval when the deliverables are received
   and prior to vendor payment.

   VMB does not have procedures in place to ensure the proper acceptance and oversight of
   contract deliverables. In addition, VMB was unable to verify that monthly reviews are
   performed to ensure the integrity of DRFs against falsifications and inaccuracies.

   By not ensuring that DRF acceptance is properly documented and monthly reviews are
   performed, deliverable acceptance may be falsified and payment made to the vendor when
   the deliverable was not completed or satisfactory.

   Recommendation 1

   We recommend that VMB and Facilities, Security, and Contracting (FSC) establish controls
   to ensure that deliverable acceptances are reviewed and documented prior to payment of
   vendor invoices.

   HRS’ Response:

   HRS partially concurs with the finding. HRS states that it non-concurs with the

   recommendation that VMB establish controls to ensure deliverable acceptances are 

   documented, namely due to assignment of responsibility. While VMB plays a role in 

   the DRF acceptance process, official documentation of DRF acceptance is a contract

   responsibility, and as such, it is FSC’s responsibility to maintain that in the contract

   file.




                                                5

   FSC’s Response:

   FSC defers to VMB for a response.

   OIG Comment:

   While VMB states that its non-concurrence is due to the assignment of responsibility, it is
   our opinion that both the VMB and FSC have joint responsibility in the payment of vendors.

2. Insufficient Controls over VMB’s Vendor Contracting for Compliance with FAR

   VMB and FSC’s Contracting group do not have adequate controls to ensure compliance with
   the FAR. Specifically, we determined that all 30 of VMB’s task order competitions that we
   sampled were missing at least one of the FAR requirements. For example, 10 task orders did
   not have evaluation criteria documented for ranking the vendors. The specific details of the
   task orders in question have been provided to VMB and FSC separate from this report.

   VMB’s procedures state that a selection panel will evaluate participating Task Order
   Competition (TOC) vendors, using a standardized VMB evaluation format with specified
   evaluation factors, and make a recommendation of the firm or firms considered the best
   qualified. VMB’s procedures also state that the approval document for task order
   assignments will be placed in the official project file.

   The FAR states, “The FAR is the primary regulation for use by all Federal Executive 

   agencies in their acquisition of supplies and services with appropriated funds.”


   VMB’s contracting files are not in compliance with the FAR, increasing the risk that task
   order competitions are not properly competed.

   Recommendation 2

   We recommend that FSC’s Contracting group work with VMB to establish and implement
   controls over its policies and procedures to ensure that VMB’s vendor contracting operations
   are in compliance with the FAR.

   HRS’ Response:

   HRS does not concur with the finding, due to the assignment of responsibility to 

   VMB. HRS believes that control of contracting operations is the responsibility of the 

   Contracting Group.


   FSC’s Response:

   FSC does not concur with the finding, due to the assignment of responsibility to 

   VMB. They state that control of contracting operations is the responsibility of the

   Contracting Group.

                                               6

OIG Comment:

We agree that FSC has overall responsibility to ensure contracting operations are
performed in compliance with the FAR requirements. We continue to believe that
both groups should work together in developing controls to ensure that all task order
competitions are in compliance with FAR requirements, and have modified our draft
recommendation to clarify each group’s role.




                                            7

IV.   MAJOR CONTRIBUTORS TO THIS REPORT

Internal Audits Group

             , Auditor-In-Charge

                , Lead Auditor

                  , Auditor

              , Senior Team Leader

                     Chief

________________________________________________________________________




                                      8

                                                                                       APPENDIX A 




                     UNITED STATES OrFICE OF PERSONNEL J'v!ANAGEMENT 

                                           Wasbingtoll, DC 20':15 

                                                                                      May31,2011
Human Resources
   Solulions MEMORANDUM   fOR
                                Chief, Internal Audits vn)up
                                                             ,


        FROM: 
                 J1:~~7f~t~,-LJ~

                                Associate Director 

                                Human Resources Solutions 




        SUBJECT: 	              Draft Report on the U.S. Office of Personnel Management's
                                Vendor Management Branch
                                Report No. 4A-HR-OO- ll-OI2
                               Deleted By OIG 

                          Not Relevant to Final Report 





Response to Recommendations

FINDING # 1: Ineffective Controls Over VMB's Deliverable Receipt
Acceptance Process.
- - --------------




             RECOMMENDATION # 1: We reconunend that VMB establish controls to
             ensure that deliverable acceptances are reviewed and documented prior to
             payment.

             MANAGEMENT RESPONSE:
                 HRS partially concurs with this finding.
                 Additional background:
                    L 	 The core finding in this case is that auditors sampled project files
                         for the FY 10 time period and found that some PMs retained DRFs
                         for projects, while others did not. HRS concurs with this portion of
                         the finding.
                    2. 	 HRS concurs with the recommendation that VMB establish
                         controls to ensure that deliverable acceptances are reviewed. VMB
                         Project Managers have always reviewed deliverable acceptances
                         prior to approving payment, and continue to do so now. Currently,
                         vendors provide OPM's Invoice Processing Team under FSC a
                         copy ofthe DRF by way of FSC' s Prompt Pay mailbox. The
                         invoice with corresponding DRF is uploaded into CBIS and a
                         hardcopy is delivered to the VMB PM, who has verification
                         responsibility by way ofhardcopy review and subsequent
                         approvallrejection in VMB's ProTrac project management system.
                         Many PMs did not retain these documents after approving
                         invoices; HRS intends to establish better controls accordingly.
                    3. 	 HRS non-concurs with the recommendation that VMB establish
                         controls to ensure deliverable acceptances are documented, namely
                         due to assignment of responsibility. While VMB plays a role in
                         the DRF acceptance process official documentation of DRF
                         acceptance is a contract responsibility, and as such it is FSC's
                         responsibility to maintain that in the contract file.
                 Corrective Action:
                   "I. 	 Management is taking several actions to improve controls to
                         ensure that deliverable acceptances are reviewed and documented
                         before payment, to include requiring the retention of DRFs in
                         project files as a backup to the official contract files housed in
                         FSC.
                    2. 	 As part of this effort, VMB PMs will receive SOPs that outline the
                         expectation that DRFs will be kept electronically in the VMB
                         AcqDoc system for future retrievaL Documentation in the form of
                         a project plan for this VMB Process Improvement Team is
                         attached. All ofthese actions should take place, with associated
                         deliverables, according to the timeframes established in the VMB
                         Process Improvement Team (VMB PIT) project plan.
                    3. 	 Expectations of employees regarding DRFs will be incorporated
                         into their performance standards. Management will task
                         Supervisors with sampling project files on a monthly basis to
                         review DRFs as an internal control to ensure compliance.
4. 	 HRSNMB's Process Improvement Team (VMB PIT) assisting
     FSCICO with ensuring that official contract files have all required
     information, including DRF, as mandated by the FAR. HRS VMB
     can provide support and structure to this process, but it would be
     inappropriate for HRS VMB to maintain the contract files.




                      Deleted By DIG 

                 Not Relevant to Final Report 

                                 Deleted By DIG 

                            Not Relevant to Final Report 





FINDING # 3: Insufficient Control over VMB Vendor Contracting.

RECOMMENDATION # 3: We recommend that VMB establish and implement
controls over its policies and procedures to ensure that its vendor contracting
operations are in compliance with the FAR.

MANAGEMENT RESPONSE:

HRS non-concurs with this finding, due to the assignment of responsibility. It is
the HRS position that, according to the Federal Acquisition Regulations (FAR),
control of contracting operations is the responsibility of the Contracting Group,
and therefore outside of the span of control of HRS.
Additional Background
        Maintaining contract files is a Contracting responsibility; however, this
        responsibility previously was assumed by VMB in light of the volume of
        contracting actions required.
In July201O, OPM's Senior Procurement Executive (SPE) determined, and HRS
concurred, that according to FAR, oversight of vendor contracting operations is
an FSC/CO responsibility, rather than a VMB responsibility. As such, VMB
created the Task Order Competition Center of Excellence (TOC COE) with new
Task Order Competition (TOC) procedures overseen by FSC CO. This group of
subject matter experts provides FSC CO with an additional front end quality
control mechanism to insure better, more accurate contract actions.
    Corrective Actions:
        HRSNMB's Process Improvement Team (VMB PIT) is assisting
        FSC/CO with ensuring that official contract files have all required
        information mandated by the FAR. HRS VMB can provide support and
        structure to this process, but it would be inappropriate for HRS VMB to
        maintain the contract files.
        HRS has also agreed to fund a total of 5 FSC CO employees to work with
        HRS VMB, and fund additional contracting surge support to assist with
        VMB recompete, contract closeout, task order competitions, and task
        order awards.

cc:

Kathleen McGettigan
Deputy Associate Director
Human Resources Solutions

Francis O'H Esquivel
Deputy Associate Director
Human Resources Solutions

George Price
Assistant Director
Account Management Group
Human Resources Solutions

Mark W. Lambert
Director, Internal Oversight and Compliance

Janet 1. Barnes
Deputy Director
Internal Oversight and Compliance

Tina McGuire 

Senior Procurement Executive 

William N. Patterson 

Director, Contracting 

                     ._-_._.__._
                               _          . .. _.   -   -        --.-   .. -.. - - - ­


                                                                                                         APPENDIX B 



                              UNITED STATES OFFICE OF PERSONNEL MANAGElI-IENT
                                                            \Yashingion, DC 20415

FaCllitie$, Sec:trily.
                                                                                                 JUN 15 2011
 and Colltracting


                Ml2MORANDUM


                FROM:                    TINA B. MCGUIRE I' : .......-;
                                                                ,
                                         Director        11(0, \
                                         Facilities, Security &          Co~tracting
                                                                             ,
                SUBJECT:                 Draft Report on the U.S. Office                 Personnel
                                         Management's Vendor Management Branch,
                                         Report No. 4A-HR-OO-II-012

                F~ci1iti cs. Security and Contracting (FSC) has reviewed the Office of
                In,spector General's (OIG) draft audit repOrt on OPM's Vendor
                Management Branch (VMB) -a nd.appreciates the opportunity to
                comm"ent on the report . In consulta~6n and partnership with HRS , we
                                                        of
                have already Undertaken a number actions to improve contracting
                activities for YMB.

                Responses to specific findings ~ recommendations arc below:

                Response to Recommendations

                FINDING # 1: Ineffective Controls Over VMB's DelivL'Table Receipt
                Acceptance Process.

                RBCOMMI::NDATION # 1: We reconunend that VMB establish control s to
               ,ensure thnt deliverable acceptances are reviewt"d and dOC\Jmcntcd plior to
                payment.

                MANAGEMENT RESPONSE:
                FSC defers to VMS for a management response in thi s area.

                Additional background:
                         The O:mtracting Group requires Contracting Officers (CO) to maintain
                         documentatiop of the acceptance of goods and services; however, there IS
                         no specific requirement in the FAR or otherwise for the CO to retain
                         ORF 's. Approvals of goods and services arc doetunented electronically
                         by the Program Offi ce in e BIS prior to vendor payment. The CB IS
                         system provides an electronic record ofacceptun ce that meets Contracting
                         Group requirements.
Corrective Action:
       To assist VMB Project Managers with maintaining DRF's for VMB
      purposes, FSC has instituted a process whereby DRFs and invoices are
       sent via Outlook ecmail directly to the Project Managers and a newly
       created VMB mailbox.




                               Deleted By OIG 

                          Not Relevant to Final Report 





RECOMMENDATION # 3: We recommend that VMB establish and implement
controls over its policies and procedures to ensure that its vendor contracting
operations are in compliance with the FAR.

MANAGEMENT RESPONSE:.

FSC non-concurs with this finding, due to the assignment ofresponsibility.
According to the Federal Acquisition Regulations (FAR), control of contracting
operations is the responsibility of the Contracting Group, and therefore outside of
the span of control ofHRS.

Additional Background
       Maintaining contract files is a Contracting responsibility; however, this
       responsibility previously was assumed by VMB in light of the volume of
       contracting actions required.
       Prior to July 2010, vendor contracting operations were delegated to VMB
       Ordering Officers. VMB Ordering Officers were warranted for actions up
       to $250,000 for task orders issued against contracts awarded by FSC
       Contracting Group personneL
       In July201 0, as a result ofa review ofcontracting actions performed by
       VMB Ordering Officers, OPM's Senior Procurement Executive (SPE)
       indicated a pattern of actions inconsistent with FAR regulations. In
       consultation with HRS' senior leadership, a determination was made to
       revoke the warrants of these personnel and move all future contract
       actions directly to the FSC Contracting Group Director in Washington,
       DC.
       Since July 2010 VMB has not had an internal contracting operation, but
       has been working collaboratively and with the guidance ofFSC
       acquisition staff comply with all FAR requirements to meet the
       operational needs o fVMB in the area of acquisition.

Corrective A cliotM':
       Following the revocation of warrants, FSC developed a ccntralized
       staffing plan to support future VMB operatio ns through 11 cadre of staff
       reporting din.octly to the FSC Contracting Director and SPE. HRS has
       concurred with the staff plan and hiring actions are currently underway,
       Furthennore, HRS and FSC have collabordterl and reached agreement on
       plans 'a nd methodologies to provide the contracting poiicies, pro,ccsses
       and ~pport necessary to meet the requirements of the both the FAR and
       VMB operatiom, Initial procurement activities have been 1ni'ti ared to
       bri ng tllis effort to fruition.

cc;

Nancy Kichak
Associate Okeetor
Human.Resources Solutions
Kathleen McGettigan
Deputy Associate Director
Human Resources Solutions

Frank. O. Esquivel
Deputy Associate Director
Human Resources Solutions
George Pri'c e, 

Director. Account Management Group 


Mark W. Lambert 

Director, Internal Oversight and Compliance 


Janet L. Bames 

Deputy Din.octor 

lnternal Oversight and Compliance 


Wil liam N. Patterson 

Director, Contracting 

